No

CR

-&*3

IN THE
SUPREME COURT OF THE UNITED STATES

0."1 p i1,N R.

z:}(

— PETITIONER

(Your Name)
vs.

— RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

S terl

AP P€304

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

(Your Name)

4-4 77

_4,

(Address)

(Di ubn,h/AS p

17z. 3 227

(City, State, Zip Code)

-6 3A-

(Phone Number)

RECEIVED
NOV 2 k 2020
eFFICE OF THELERK
SUPREME COURT, U.S.

TABLE OF CONTENTS

QUESTION(S)PRESENTED

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED......2
CONCLUSION

5

PROOF OF SERVICE

6

INDEX TO APPENDICES
APPENDIX A Decision of Unite States District Court
APPENDIX B Decision of Unite States Court of Appele
APPENDIX C Certificate of Pastor Fr. Joven Malanyaon
APPENDIX D Certificate of Director Theresa Roach
APPENDIX E

Certificate of Director Theresa Roach

APPENDIX F

Certificate of Supervisor Lisa K. Wingfield

APPENDIX G Certificate of Supervisor Roberta A. Wetherbee
APPENDIX H Certificate of Dr. Eduaido V. Shea M.D
APPENDIX I

Certificate of Civilian Performance Rating

APPENDIX J The copy of the Questionnaire for public trust posions #19

QUESTION(S) PRESENTED
The Court said that the above-titled petition was denied by the full Court without comment,
which is its customary practice as a court of jurisdiction. No further explanation is available.
We know the all Judges in the Supreme Court.
The Court understands the law, and the Court is the law enforcement agency. The Court always
asks people Provide evidence, evidence. We hope that the Court can give legal explanations in
accordance with the law when the Court decides this case.
Everyone must obey the law. It is special that when we come to the court, we must prove any
documents that we are acting in accordance with the law. After the petitioner sued him, DFAS
did not provide any documents
The analysis of these 1% and 99% means that the petitioner hope the court will not push
her into 99% (just cancel the analysis of 1% and 99%) .But the Petitioner's case has been
established on June 25, 2020.
If the case will still be denied, the petitioner would like to know why.
Please explain the reasons for rejecting her.

Respectfully Submitted,

iping Rizk
jipingrizk@yahoo . corn
419-913-0615

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

MOTION TO RECONSIDER
GOD WATCH US
CLAIM VIOLATION OF CIVIL SERVICE REFORM ACT OF 1978
Since the petitioner filed a DFAS lawsuit in the district court and the U.S. court Appeals and the
Supreme Court of the United States, a total of four years. After the petitioner filed a lawsuit, ,
until now the DFAS do not has any reason to answer the questions that petitioner asked, and
DFAS (he) has not provide to the Court and petitioner any document of the reason for fire her,
and DFAS do not have any evidence at all. This is the biggest evidence that he violated the U.S.
law of the Civil Service Reform Act of 1978.and the rights under the Due Process Clause of the
Fifth Amendment to employment and reputation (Counts III, IV, and V); and the Fifth
Amendment right to non-discrimination in employment (Count VI).

DFAS is not only violated the law. And also violated the rules of the Court, and crossed the
death line many times. Please see the Court A GUIDE FOR Pro SE CIVIL LITIGANTS, p 12
the # 3. that Defendant Files Nothing: If the defendant does not file anything within the
deadline for filing a response, he or she is in "default" you may request the Clerk to enter a
default into the Court record, After a default is entered by the Clerk, you may file a motion for
default judgment. Default judgment is a judgment awarding the Plaintiff the relief sought in the
complaint because the Defendant failed to respond to the complaint or otherwise make an
appearance in Court. The petitioner file a motion for default judgment many times but the Court
did not follow the Court Rule. It has been for four years. Is the Court going to help him break the
law?
Furthermore, the petitioner has sent a lot of evidence to the Court. DFAS violated American
law! Is DFAS above the law? Why does DFAS despise American law, he use authority and
power disregards the law, and he can do whatever he wants? DFAS violated American law. Why
did the Court not punish him(DFAS) who violated the law , but punish petitioners who abide by

02

the law? Does U.S. law only restrict citizens, not the government?

Plaintiff alleges that her employment termination did not follow proper protocol in her
termination, nor did it take into account her rights under the DFAS employee placement
program. Plaintiff was a federal employee with over six years of full-time employment and was
not a probationary employee and she is a permanent employee . As such, she should have only
been removed for an advanced showing of cause, not just whether or not she considered China to
be a foreign country. There is not one bit of evidence in the appellate record showing that
Plaintiff has committed serious job performance issues. In fact, the record shows that Plaintiff
was a good employee and she got reward very year.

Plaintiff should not have been let go from her employment for the reasons alleged by Defendant.
Even taking the face value of the Defendant's reasons for termination, they were insufficient to
terminate Plaintiff. As such, her termination was improper, and in violation of the Civil Service
Reform Act of 1978.and the rights under the Due Process Clause of the Fifth Amendment to
employment and reputation (Counts III, IV, and V); and the Fifth Amendment right to nondiscrimination in employment (Count VI).

The Court refused to protect an American citizen who has two degrees and consistently abide by
American laws and she was loyal, hardworking, and she was willing to dedicate everything for
the United States. DFAS has not given any reason to fire her for 4 years. The case was
established in this court on June 25, 2020, and the court denied the case without giving any
reasons.
The Court said that they have many cases and they only accept 1% of them. (just canceled the an
alysis of 1% and 99%)There are many cases in the Courts, which shows that these people trust
the U.S.' law and trust law enforcement agencies. Trust the Court will act according to the law.
They come to the Court to seek justice.
Every citizen respects the Court. Because The Court is Law enforcement authorities. Citizens

3

believe that this law enforcement agency will act according to the law and citizens trust and
believe the Court must will use the law to protect all citizens. Because people believe that
American laws are fair, they believe the law enforcement agencies will and must act in
accordance with the law, and can abide by the law to maintain justice. People pin their hopes on
law enforcement agencies. No Court should ignore the hope of the people. According to the law,
everyone is equally protected by U.S. law, and DFAS is not higher than the law. DFAS violate
this American law. Does the Court want to help DFAS violate this American law?
The Court order the Petitioner must send all document to the DFAS. the Petitioner follow the
order, but the DFAS did not send anything to her? why did the DFAS send the waiver only to the
Supreme court but not sent to her, what did they want to hide?

There are many people, including some pastors. They are all American legal persons and
supporters of the law. When they learned of the case, they were shocked. They think this is
unfair. they Decided to help her write a book about the case.

In the entire world, the U.S. law is the country with the most comprehensive laws. It is also the
most wanted country in the world. Why can't this American law Enforcement of the government
and cannot protect 99% of American citizens.

The Petitioner loves America and she believes that the United States is an equal and free country,
and everything is followed by the law. And protracted by the law and equally by the law. The
Petitioner believed that the United States would will give a reasonable judgment on her case.

Respectfully Submitted,

Jiping Riz
jipingrizk@yahoo.com
419-913-0615

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Tr p tlfl
Date.

iV1 2.k_

NOV , .6)- ca0c).0

